            EVALUATION REPORT


                         Independent Evaluation of
                        NRC’s Implementation of the
                  Federal Information Security Management
                           Act for Fiscal Year 2008

                  OIG-08-A-18        September 26, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  September 26, 2008


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   INDEPENDENT EVALUATION OF NRC’S
                           IMPLEMENTATION OF THE FEDERAL INFORMATION
                           SECURITY MANAGEMENT ACT FOR FISCAL YEAR 2008
                           (OIG-08-A-18)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Independent
Evaluation of NRC’s Implementation of the Federal Information Security Management
Act For Fiscal Year 2008.

The report presents the results of the subject audit. Agency comments provided at the
September 16, 2008, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5911.

Attachment: As stated
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste and Materials
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                           Independent Evaluation of
                          NRC’s Implementation of the
                 Federal Information Security Management Act
                              for Fiscal Year 2008




                                Contract Number: GS-00F-0001N
                                 Delivery Order Number: 20291

                                                 September 19, 2008




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2008


EXECUTIVE SUMMARY


BACKGROUND

           On December 17, 2002, the President signed the E-Government Act of 2002, which
           included the Federal Information Security Management Act (FISMA) of 2002. FISMA
           outlines the information security management requirements for agencies, which include
           an annual independent evaluation of an agency’s information security program1 and
           practices to determine their effectiveness. This evaluation must include testing the
           effectiveness of information security policies, procedures, and practices for a
           representative subset of the agency’s information systems. FISMA requires the annual
           evaluation to be performed by the agency’s Inspector General (IG) or by an independent
           external auditor.

           Office of Management and Budget (OMB) memorandum M-08-21, FY 2008 Reporting
           Instructions for the Federal Information Security Management Act and Agency Privacy
           Management, dated July 14, 2008, requires the agency’s IG to complete the OMB
           FISMA Reporting Template for IGs (referred to by OMB as Section C). That template is
           submitted to OMB as part of the agency’s annual FISMA report and is included as
           Appendix B to this report.

           This report reflects the status of the agency’s information system security program as of
           the completion of fieldwork on August 31, 2008. Any information received from the
           agency subsequent to the completion of fieldwork was incorporated when possible.

PURPOSE

           The objective of this review was to perform an independent evaluation of the Nuclear
           Regulatory Commission’s (NRC) implementation of FISMA for fiscal year (FY) 2008.

RESULTS IN BRIEF

           Program Enhancements and Improvements

           Over the past 6 years, NRC has made improvements to its information system security
           program and continues to make progress in implementing the recommendations resulting
           from previous FISMA evaluations. In order to meet FISMA requirements as they relate
           to information technology (IT) security, the Commission, on November 14, 2007,
           approved the establishment of the Computer Security Office (CSO). The new office
           reports to the Deputy Executive Director for Information Services (DEDIS) and Chief
           Information Officer (CIO) and is headed by the Chief Information Security Officer
           (CISO). The CISO plans, directs, and oversees the implementation of a comprehensive,
           coordinated, integrated, and cost-effective NRC IT security program, consistent with


1
    For the purposes of FISMA, the agency uses the term “information system security program.”


                                                          i
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2008


           applicable laws; regulations; Commission, Executive Director for Operations, and CIO
           direction; management initiatives; and policies.

           Two significant deficiencies were identified in the FY 2007 FISMA independent
           evaluation. Both of these significant deficiencies have been addressed in FY 2008.

               •    In FY 2007, only 2 of the 30 operational NRC information systems had a current
                    certification and accreditation, and only 4 of the 11 systems used or operated by a
                    contractor or other organization on behalf of the agency had a current certification
                    and accreditation. As of the completion of fieldwork for FY 2008, 14 of the 28
                    most risk-significant operational NRC information systems had a current
                    certification and accreditation, and 8 of the 11 systems used or operated by a
                    contractor or other organization on behalf of the agency had a current certification
                    and accreditation. While only 50 percent of the operational NRC information
                    systems have a current certification and accreditation, Carson Associates no
                    longer considers this a significant deficiency due to the significant progress the
                    agency has made during the past fiscal year. The FY 2007 FISMA independent
                    evaluation found that in the past 2 years the agency had completed certification
                    and accreditation of only two NRC systems and one contractor system for which
                    NRC has direct oversight. In FY 2008, the agency completed certification and
                    accreditation of 12 NRC systems and 1 contractor system for which NRC has
                    direct oversight – more than four times the number completed in the previous 2
                    fiscal years.2 The certification and accreditation of two systems is nearing
                    completion, and the agency has stated in its fourth quarter FY 2008 FISMA
                    submission to OMB that it plans to complete certification and accreditation of the
                    remaining systems in FY 2009.
               •    In FY 2007, annual contingency plan testing was still not being performed for all
                    systems. As of the completion of fieldwork for FY 2008, the agency had
                    completed annual contingency plan testing for all agency systems and all
                    contractor systems for which NRC has direct oversight.

           In addition to making significant progress on the two significant deficiencies identified in
           FY 2007, the agency has accomplished the following since the FY 2007 FISMA
           independent evaluation:

               •    All major applications and general support systems have been categorized in
                    accordance with Federal Information Processing Standards (FIPS) Publication
                    199, Standards for Security Categorization of Federal Information and
                    Information Systems.
               •    The agency completed annual security control testing for all agency systems and
                    for all contractor systems for which NRC has direct oversight.



2
    One system was issued a limited authorization to operate that expires after 1 year. The agency is currently making
    the corrections specified by the designated approving authority and is recertifying and re-accrediting the system.


                                                            ii
                                                                                       Independent Evaluation of
                                                                        NRC’s Implementation of FISMA for FY 2008


               •   The agency completed or updated security plans for 14 of the agency’s 28
                   operational systems and for all contractor systems for which NRC has direct
                   oversight.
               •   The agency has made progress in implementing the provisions of OMB
                   Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
                   Personally Identifiable Information (PII). For example, on September 19, 2007,
                   NRC issued the NRC Personally Identifiable Information Breach Policy and the
                   NRC Plan to Eliminate the Unnecessary Collection and Use of Social Security
                   Numbers. Section 3.7.2 provides additional details on the agency’s progress in
                   implementing the provisions of the OMB memorandum.

           Program Weaknesses

           While the agency has made significant improvements in its information system security
           program and has made progress in implementing the recommendations resulting from
           previous FISMA evaluations, the independent evaluation identified four information
           system security program weaknesses. Two are repeat findings from the FY 2007
           independent evaluation, and two are new.

               •   The NRC inventory does not identify interfaces between systems (new finding).
               •   The quality of the agency’s plans of action and milestones (POA&M) needs
                   improvement (repeat finding).
               •   Not all Windows XP and Vista systems3 have implemented Federal Desktop Core
                   Configuration (FDCC) security settings (new finding).
               •   The agency lacks procedures for ensuring employees with significant IT security
                   responsibilities receive security training (repeat finding).

RECOMMENDATIONS

           This report makes recommendations to the Executive Director for Operations to improve
           NRC’s information system security program and implementation of FISMA.
           Recommendations are made in this report for the new findings only. Recommendations
           for the repeat findings were made in prior reports and completion of those findings is
           being tracked through the Office of the Inspector General (OIG) followup process. A
           consolidated list of recommendations appears on page 33 of this report.

AGENCY COMMENTS

           At an exit conference on September 16, 2008, agency officials agreed with the report’s
           findings and recommendations and provided 2 editorial changes, which the OIG
           incorporated as appropriate. The agency opted not to submit formal comments.




3
    Windows XP and Vista are operating systems produced by Microsoft.


                                                        iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2008




[Page intentionally left blank]




              iv
                                                                        Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2008


ABBREVIATIONS AND ACRONYMS


BPIAD               Business Process Improvement and Applications Division
Carson Associates   Richard S. Carson and Associates, Inc.
CIO                 Chief Information Officer
CIS                 Center for Internet Security
CISO                Chief Information Security Officer
CSIRT               Computer Security Incident Response Team
CSO                 Computer Security Office
DEDIS               Deputy Executive Director for Information Services
DISA                Defense Information Systems Agency
FDCC                Federal Desktop Core Configuration
FIPS                Federal Information Processing Standard
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
IATO                Interim Authorization to Operate
IG                  Inspector General
IRSD                Information and Records Services Division
ISS                 Information System Security
IT                  Information Technology
MD                  Management Directive
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
NSICD               NRC System Information Control Database
OIG                 Office of the Inspector General
OIS                 Office of Information Services
OMB                 Office of Management and Budget
P2P                 Peer-to-Peer
P3P                 Platform for Privacy Preferences Project
PIA                 Privacy Impact Assessment
PII                 Personally Identifiable Information
POA&M               Plan of Action and Milestones
SP                  Special Publication
UPI                 Unique Project Identifier
US-CERT             United States Computer Emergency Readiness Team




                                           v
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2008




[Page intentionally left blank]




              vi
                                                                                                           Independent Evaluation of
                                                                                            NRC’s Implementation of FISMA for FY 2008


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ...................................................................................... v

1 Background .............................................................................................................. 1
2 Purpose .................................................................................................................... 1
3 Findings.................................................................................................................... 1
  3.1 FISMA Systems Inventory (Question 1) ........................................................ 4
            All Major Applications and General Support Systems Have Been Categorized in Accordance
                           With FIPS 199..................................................................................................... 5
            Security Categorizations Reflect the Information Types That Reside on the Systems................ 5
    3.2     FISMA Systems Inventory (Question 2) ........................................................ 6
            Annual Contingency Plan Testing Was Completed for All Agency Systems and All Contractor
                          Systems for Which NRC Has Direct Oversight .................................................. 7
    3.3     Evaluation of Agency Oversight of Contractor Systems (Question 3a) ..... 8
            Agency Oversight of Contractor Systems Meets FISMA Requirements..................................... 8
            Agency Continues To Have Difficulty in Obtaining Documentation That Demonstrates
                         e-Government Systems Meet FISMA Requirements.......................................... 9
    3.4     Evaluation of Quality of Agency System Inventory (Questions 3b-3f) ..... 10
            FINDING A – The NRC Inventory Does Not Identify Interfaces Between Systems (New
                        Finding) ............................................................................................................. 11
    3.5     Evaluation of Agency POA&M Process (Question 4)................................. 11
            FINDING B – The Quality of the Agency’s POA&Ms Still Needs Improvement (Repeat
                        Finding) ............................................................................................................. 13
            NRC Has Made Progress in Correcting Weaknesses Reported on Its POA&Ms ...................... 14
    3.6     IG Assessment of the Certification and Accreditation Process (Question
            5) ..................................................................................................................... 15
            NRC Has Made Significant Progress in Certifying and Accrediting Its Systems...................... 18
            NRC Has Completed or Updated Security Plans for 14 of the Agency’s 28 Operational
            Systems and for All Contractor Systems for Which NRC Has Direct Oversight ...................... 18
            The Agency’s Certification and Accreditation Process and the Documents Completed Using
                          the New Procedures are Consistent with NIST Guidance................................. 18
            NRC Has Completed Annual Security Control Testing for All Agency Systems and for All
                          Contractor Systems for Which NRC Has Direct Oversight .............................. 20
    3.7     IG Assessment of Agency Privacy Program and Privacy Impact
            Assessment (PIA) Process (Questions 6-7) ................................................ 21
            3.7.1      Privacy Impact Assessment Process .......................................................... 21
            3.7.2      Progress in Implementing OMB M-07-16 ..................................................... 23
    3.8     Configuration Management (Question 8) .................................................... 25
            3.8.1      Configuration Policy and Common Security Configurations .................... 25
            3.8.2      Federal Desktop Core Configuration (FDCC).............................................. 26


                                                                     vii
                                                                                                     Independent Evaluation of
                                                                                      NRC’s Implementation of FISMA for FY 2008


            FINDING C – Not All Windows XP and Vista Systems Have Implemented FDCC Security
                        Settings (New Finding) ..................................................................................... 27
    3.9 Incident Reporting (Question 9)................................................................... 29
    3.10 Security Awareness Training (Question 10) ............................................... 29
            FINDING D – Agency Still Developing Procedures for Ensuring Employees With Significant
                        IT Security Responsibilities Receive Security Training (Repeat Finding) ....... 30
  3.11 Collaborative Web Technologies and Peer-to-Peer File Sharing
       (Question 11) ................................................................................................. 31
  3.12 E-Authentication Risk Assessments (Question 12) ................................... 31
4 Consolidated List of Recommendations ............................................................. 33
5 Agency Comments ................................................................................................ 35


Appendices

    Appendix A. SCOPE AND METHODOLOGY.................................................................... 37
    Appendix B. FY 2008 OMB FISMA REPORTING TEMPLATE FOR IGs ......................... 39



List of Tables

    Table 3-1. Total Number of Agency and Contractor Systems and Number
               Reviewed by FIPS 199 Risk Impact Level ........................................................4
    Table 3-2. Number and Percentage of Systems Reviewed That Are Certified and
               Accredited, for Which Security Controls Have Been Tested and
               Reviewed in the Past Year, and for Which Contingency Plans Have
               Been Tested in Accordance With Policy by FIPS 199 Risk Impact Level .....6




                                                                 viii
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2008


1          Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included
FISMA.4 FISMA outlines the information security management requirements for agencies,
which include an annual independent evaluation of an agency’s information security program
and practices to determine their effectiveness. This evaluation must include testing the
effectiveness of information security policies, procedures, and practices for a representative
subset of the agency’s information systems. FISMA requires the annual evaluation to be
performed by the agency’s IG or by an independent external auditor.

OMB memorandum M-08-21 requires the agency’s IG to complete the OMB FISMA Reporting
Template for IGs. That template is submitted to OMB as part of the agency’s annual FISMA
report.

Richard S. Carson and Associates, Inc. (Carson Associates), performed an independent
evaluation of NRC’s implementation of FISMA for FY 2008. This report presents the results of
that independent evaluation. Carson Associates also prepared the OMB FISMA Reporting
Template for IGs for inclusion in the agency’s annual FISMA report. The OMB FISMA
Reporting Template for IGs is included as Appendix B to this report.

This report reflects the status of the agency’s information system security program as of the
completion of fieldwork on August 31, 2008. Any information received from the agency
subsequent to the completion of fieldwork was incorporated when possible.

2          Purpose

The objective of this review was to perform an independent evaluation of NRC’s implementation
of FISMA for FY 2008. Appendix A contains a description of the evaluation scope and
methodology.

3          Findings

Over the past 6 years, NRC has made improvements to its information system security program
and continues to make progress in implementing the recommendations resulting from previous
FISMA evaluations. In order to meet FISMA requirements as they relate to IT security, the
Commission, on November 14, 2007, approved the establishment of the CSO. The new office
reports to the DEDIS and CIO and is headed by the CISO. The CISO plans, directs, and
oversees the implementation of a comprehensive, coordinated, integrated, and cost-effective
NRC IT security program, consistent with applicable laws; regulations; Commission, Executive
Director for Operations, and CIO direction; management initiatives; and policies.

The CSO was established to serve as the focal point for IT security and to provide vision,
leadership, and oversight in developing, promulgating, and implementing an end-to-end NRC IT

4
    The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
    Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
    which expired in November 2002.


                                                         1
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2008


security strategy. The CSO is divided into three core areas: Cyber Situational Awareness,
Analysis, and Response Team; FISMA Compliance and Oversight Team; and Policy, Standards,
and Training Team. The CSO provides IT security oversight responsibility, coordinates the
overall agency IT security program, develops policies and procedures, and provides assistance
with security reviews, assessments, and plans to those offices requiring it. The organizational
changes became effective November 25, 2007. The DEDIS/CIO acted as the CISO until that
position was filled effective March 16, 2008.

Two significant deficiencies were identified in the FY 2007 FISMA independent evaluation.
Both of these significant deficiencies have been addressed in FY 2008.

   •   In FY 2007, only 2 of the 30 operational NRC information systems had a current
       certification and accreditation, and only 4 of the 11 systems used or operated by a
       contractor or other organization on behalf of the agency had a current certification and
       accreditation. As of the completion of fieldwork for FY 2008, 14 of the 28 most risk-
       significant operational NRC information systems had a current certification and
       accreditation, and 8 of the 11 systems used or operated by a contractor or other
       organization on behalf of the agency had a current certification and accreditation. While
       only 50 percent of the operational NRC information systems have a current certification
       and accreditation, Carson Associates no longer considers this a significant deficiency due
       to the significant progress the agency has made during the past fiscal year. The FY 2007
       FISMA independent evaluation found that in the past 2 years the agency had completed
       certification and accreditation of only two NRC systems and one contractor system for
       which NRC has direct oversight. In FY 2008, the agency completed certification and
       accreditation of 12 NRC systems and 1 contractor system for which NRC has direct
       oversight – more than four times the number completed in the previous 2 fiscal years.
       The certification and accreditation of two systems is nearing completion, and the agency
       has stated in its fourth quarter FY 2008 FISMA submission to OMB that it plans to
       complete certification and accreditation of the remaining systems in FY 2009.
   •   In FY 2007, annual contingency plan testing was still not being performed for all
       systems. As of the completion of fieldwork for FY 2008, the agency had completed
       annual contingency plan testing for all agency systems and all contractor systems for
       which NRC has direct oversight.

In addition to making significant progress on the two significant deficiencies identified in FY
2007, the agency has also accomplished the following since the FY 2007 FISMA independent
evaluation:

   •   All major applications and general support systems have been categorized in accordance
       with FIPS 199.
   •   The agency completed annual security control testing for all agency systems and for all
       contractor systems for which NRC has direct oversight.
   •   The agency completed or updated security plans for 14 of the agency’s 28 operational
       systems and for all contractor systems for which NRC has direct oversight.




                                                2
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2008


   •   The agency has made progress in implementing the provisions of OMB Memorandum
       M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
       Information (PII). For example, on September 19, 2007, NRC issued the NRC
       Personally Identifiable Information Breach Policy and the NRC Plan to Eliminate the
       Unnecessary Collection and Use of Social Security Numbers. Section 3.7.2 provides
       additional details on the agency’s progress in implementing the provisions of the OMB
       memorandum.

While the agency has made significant improvements in its information system security program
and has made progress in implementing the recommendations resulting from previous FISMA
evaluations, the independent evaluation identified four information system security program
weaknesses. Two are repeat findings from the FY 2007 independent evaluation, and two are
new.

   •   The NRC inventory does not identify interfaces between systems (new finding).
   •   The quality of the agency’s POA&Ms needs improvement (repeat finding).
   •   Not all Windows XP and Vista systems have implemented FDCC security settings (new
       finding).
   •   The agency lacks procedures for ensuring employees with significant IT security
       responsibilities receive security training (repeat finding).

Recommendations are made in this report for the new findings only. Recommendations for the
repeat findings were made in prior reports, and completion of those findings is being tracked
through the OIG followup process.

The following sections present the detailed findings from the independent evaluation and are
organized based on the OMB FISMA Reporting Template for IGs, which can be found in
Appendix B of this report. Each major section corresponds to a question or set of questions from
the template. Findings are presented in the sections to which they are relevant.




                                               3
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2008


3.1       FISMA Systems Inventory (Question 1)

                                 OMB Requirement                                                 OIG Response
    1. As required in FISMA, the IG shall evaluate a representative subset                 See Table 3-1 below.
    of systems used or operated by an agency or by a contractor of an
    agency or other organization on behalf of an agency. Identify the
    number of agency and contractor information systems, and the number
    reviewed, by component/bureau and FIPS 199 system impact level
    (high, moderate, low, or not categorized).

                    Table 3-1. Total Number of Agency and Contractor Systems
                                       and Number Reviewed
                                   by FIPS 199 Risk Impact Level
                                                                                          Total Number of
                                                                                          Systems (Agency
                               Agency Systems              Contractor Systems
                                                                                           and Contractor
                                                                                             Systems)
                                                                                                        Total
        FIPS 199 Risk                      Number                         Number         Total
                             Number                        Number                                      Number
        Impact Level                      Reviewed                       Reviewed       Number
                                                                                                      Reviewed
            High                11             1               1              0             12             1
          Moderate              17             2               9              0             26             2
            Low                  0             0               1              1              1             1
      Not Categorized            0             0               0              0              0             0
            Total               28             3              11              1             39             4

NRC has a total of 28 operational systems that fall under FISMA reporting requirements.5 Of
the 28, 15 are general support systems,6 and 13 are major applications.7 As required by FISMA,
Carson Associates selected a subset of NRC systems for evaluation during the FY 2008 FISMA
independent evaluation.

NRC has a total of 11 systems operated by a contractor or other organization on behalf of the
agency (9 major applications and 2 general support systems). Of the 11, 8 are operated by other
Federal agencies, 1 is operated by a federally funded research and development center, and 2 are
operated by private contractors. NRC has direct oversight of three of these systems. Oversight
of the remaining eight systems is the responsibility of the Federal agencies operating the
systems. Therefore, the IGs of those agencies are responsible for evaluating those systems.

5
  NRC also has a number of major applications and general support systems currently in development. For FISMA
  reporting purposes, only operational systems are considered.
6
  A general support system is an interconnected set of information resources under the same direct management
  control that share common functionality. Typical general support systems are local and wide area networks,
  servers, and data processing centers.
7
  A major application is a computerized information system or application that requires special attention to security
  because of the risk and magnitude of harm that would result from the loss, misuse, or unauthorized access to or
  modification of the information in the application.


                                                          4
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2008


As required by FISMA, Carson Associates selected for evaluation a subset of contractor systems
for which NRC has direct oversight during the FY 2008 FISMA independent evaluation.

Security Categorization – Background

FIPS 199 requires all Federal agencies to categorize their information systems as low-impact,
moderate-impact, or high-impact for the security objectives of confidentiality, integrity, and
availability. The security categorization of an information system is conducted by first
categorizing all information types8 resident on the information system. The security category of
an information type is established by determining the potential impact (i.e., low, moderate, high)
for each security objective (i.e., confidentiality, integrity, availability) associated with the
particular information type.

The security categorization of an information system must take into account the security
categories of all information types resident on the information system being categorized. For an
information system, the potential impact values assigned to the respective security objectives are
the highest values (i.e., high-water mark) from among the security categories that have been
determined for each information type resident on the information system.

All Major Applications and General Support Systems Have Been Categorized in
Accordance With FIPS 199

The FY 2007 independent evaluation found that the majority of NRC major applications and
general support systems had not been categorized in accordance with FIPS 199. As of the
completion of fieldwork, the agency has completed categorizations for all major applications and
general support systems, including those operated by a contractor or other organization on the
behalf of the agency. The agency completed security categorizations for 13 agency systems and
6 contractor systems in FY 2008. The agency also updated the security categorization for one
contractor system in FY 2008.

Security Categorizations Reflect the Information Types That Reside on the Systems

The FY 2007 independent evaluation also found that security categorizations for some systems
did not consistently reflect the information types that reside on the systems. The agency has
started the process of reviewing and correcting security categorizations and has developed
security categorization review criteria as a supplement to the existing security categorization
procedures. To evaluate the agency’s progress in resolving the problem, Carson Associates
reviewed the security categorizations for three agency systems and two contractor systems. We
compared the information types enumerated in the security categorizations with the primary
information types for those systems as identified in the agency’s Exhibit 539 for FY 2007 and


8
  Information is categorized according to its information type. An information type is a specific category of
  information (e.g., privacy, medical, proprietary, financial, investigative, contractor sensitive, security
  management) defined by an organization or, in some instances, by a specific law, Executive order, directive,
  policy, or regulation.
9
  The Exhibit 53 is used by agencies to report their IT investment portfolio annually to OMB. The Exhibit 53
  provides budget estimates for all IT investments and identifies those that are major investments.


                                                         5
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2008


with updated unique project identifiers (UPI)10 provided by the agency. Carson Associates found
that the security categorizations for four of the five systems reflect the primary business area,
primary line of business, and/or primary sub-function of those systems as indicated on the
Exhibit 53 or in the updated UPI.

3.2         FISMA Systems Inventory (Question 2)

                                    OMB Requirement                                              OIG Response
 2. For the total number of systems reviewed by component/bureau and                        See Table 3-2 below.
 FIPS system impact level for Question 1, identify the number and
 percentage of systems which have: a current certification and
 accreditation, security controls tested and reviewed within the past
 year, and a contingency plan tested in accordance with policy.

                   Table 3-2. Number and Percentage of Systems Reviewed
                              That Are Certified and Accredited,
       for Which Security Controls Have Been Tested and Reviewed in the Past Year, and
           for Which Contingency Plans Have Been Tested in Accordance With Policy
                                by FIPS 199 Risk Impact Level
                                                                                         # Systems Reviewed
                                                            # Systems Reviewed
                                                                                              for Which
                                # Systems Reviewed           for Which Security
                                                                                          Contingency Plans
                                  That Are Certified         Controls Have Been
                                                                                         Have Been Tested in
                                   and Accredited           Tested and Reviewed
                                                                                           Accordance With
                                                               in the Past Year
                                                                                                Policy
          FIPS 199 Risk          Total        Percent         Total        Percent        Total        Percent
          Impact Level          Number        of Total       Number        of Total      Number        of Total
               High                 1          100%             1           100%             1          100%
            Moderate                2          100%             2           100%             2          100%
               Low                  1          100%             1           100%             1          100%
        Not Categorized             0          100%             0           100%             0          100%
               Total                4          100%             4           100%             4          100%

This section reports on the number of agency and contractor systems that were reviewed that are
certified and accredited and for which security controls have been tested and reviewed in the past
year. Section 3.6 of this report discusses the assessment of the agency’s certification and
accreditation process in detail and includes the certification and accreditation status and the
annual security control testing status of all agency and contractor systems.




10
      The UPI is a 17-digit line code used to uniquely identify IT investments on an Exhibit 53. Each investment
     identified in an agency’s portfolio must have a unique UPI.


                                                            6
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2008


Contingency Plan Testing – Background

FISMA requires agencies to develop plans and procedures to ensure continuity of operations for
information systems that support the operations and assets of the agency. National Institute of
Standards and Technology (NIST) Special Publication (SP) 800-34, Contingency Planning
Guide for Information Technology Systems, states that contingency plans should be tested at least
annually and when significant changes are made to the information system, supported business
process(es), or the contingency plan. Management Directive (MD) and Handbook 12.5, NRC
Automated Information Security Program, states that the NRC shall comply with the NIST
guidance to include guidance related to the preparation of security documentation (such as
system security plans, IT risk assessments, and IT contingency plans) and other applicable NIST
automated information security guidance for IT security processes, procedures, and testing. MD
12.5 also states that IT contingency plans for major applications and general support systems
shall be tested each year. A live test provides the best indication of the adequacy of a
contingency plan test. If a live test cannot be conducted due to operational constraints, a
simulated test may be conducted in lieu of the live test. NRC Information Systems Security
(ISS) and Office of Information Services (OIS) procedures also require annual contingency plan
testing for all major applications and general support systems, including generating a
contingency plan test report.

Annual Contingency Plan Testing Was Completed for All Agency Systems and All
Contractor Systems for Which NRC Has Direct Oversight

On November 8, 2007, the CIO sent the agency a request for contingency plan schedules that
included a requirement to complete contingency plan testing no later than June 30, 2008. The
request also noted that if a system is owned by another agency, then the other agency is
responsible for the contingency plan testing; however, NRC must acquire a memorandum from
the other agency stating that it has completed its annual contingency plan test in accordance with
FISMA. This memorandum must also be received by June 30, 2008.

The FY 2005, FY 2006, and FY 2007 FISMA independent evaluations found that annual
contingency plan testing was not being performed for all systems. The lack of annual
contingency plan testing was reported as a significant deficiency in the FY 2006 and FY 2007
FISMA independent evaluation reports. In FY 2007, only 5 of the 30 operational NRC
information systems and 2 of the 11 systems used or operated by a contractor or other
organization on behalf of the agency had their contingency plans tested.

As of the completion of fieldwork for FY 2008, contingency plan testing11 was completed for all
28 operational NRC information systems and for the 3 contractor systems for which NRC has
direct oversight. The agency also received notification from the Federal agencies responsible for
eight additional contractor systems that contingency plan testing was completed in FY 2008 for
those systems.



11
     Any testing performed between September 1, 2007, and the completion of fieldwork would be considered as FY
     2008 test results.


                                                         7
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2008


3.3      Evaluation of Agency Oversight of Contractor Systems (Question 3a)

                                  OMB Requirement                                               OIG Response
 3.a. The agency performs oversight and evaluation to ensure                                Almost Always (96-
 information systems used or operated by a contractor of the agency or                      100% of the time)
 other organization on behalf of the agency meet the requirements of
 FISMA, OMB policy and NIST guidelines, national security policy, and
 agency policy.

Oversight of Contractor Systems – Background

FISMA requires agencies to provide information security protections commensurate with the risk
and magnitude of harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (1) information collected or maintained by or on behalf of the
agency or (2) information systems used or operated by an agency or by a contractor of an agency
or other organization on behalf of an agency.12

NRC defines two types of systems that are operated by a contractor or other organization on
behalf of NRC – e-Government systems and contractor systems. An e-Government system is a
system that processes NRC information and is operated and maintained by another Federal
agency, and a contractor system is a system that processes NRC information and is operated and
maintained by a contractor. NRC requires all e-Government and contractor systems to be
certified and accredited prior to processing any sensitive NRC information or connecting to the
NRC infrastructure, and for contractor systems, also requires the same annual security
requirements and recertification and re-accreditation requirements as NRC systems.

NRC has a total of 11 systems operated by a contractor or other organization on behalf of the
agency. Of the 11, 8 are considered e-Government systems and 3 are considered contractor
systems. NRC has direct oversight of the three contractor systems. Oversight of the eight
e-Government systems is the responsibility of the Federal agencies operating the systems.

Agency Oversight of Contractor Systems Meets FISMA Requirements

In previous FISMA independent evaluations, Carson Associates found that oversight of
contractor systems was lacking. In FY 2007, of the four contractor systems for which NRC has
direct oversight,13 only one had a current certification and accreditation and met all NRC
requirements for contractor systems.

As of the completion of fieldwork for FY 2008, two of the three contractor systems for which
NRC has direct oversight had a current certification and accreditation. All three had their


12
    Information systems used or operated by a contractor of an agency or other organization on behalf of the agency
   refers to information systems that the agency considers to be either major applications or general support systems.
13
    NRC removed one of the four contractor systems for which they have direct oversight from its inventory. This
   system was consolidated into the local area network/wide area network general support system and is no longer
   reported as a separate system.


                                                           8
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2008


security controls tested and reviewed in the past year and had completed annual contingency plan
testing.

Agency Continues To Have Difficulty in Obtaining Documentation That Demonstrates
e-Government Systems Meet FISMA Requirements

In previous FISMA independent evaluations, Carson Associates found that the agency was not
maintaining documentation that demonstrates e-Government systems meet FISMA requirements.
The agency has been working with the offices to assist in acquiring the required documentation
for e-Government; however, according to the agency, some of the other Federal agencies have
been unwilling to provide documentation that demonstrates their systems meet FISMA
requirements.

The agency continues to have difficulty in obtaining documentation that demonstrates
e-Government systems meet FISMA requirements. The following is a summary of the status of
documentation for e-Government systems in use at NRC.

   •   The agency has received documentation from the Federal agencies responsible for six
       e-Government systems stating that those systems have a current certification and
       accreditation. One Federal agency has not responded regarding the certification and
       accreditation status of its system, and one Federal agency system has an expired
       certification and accreditation.
   •   The agency has received documentation from the Federal agencies responsible for four
       e-Government systems stating that those systems have had their security controls tested
       and reviewed in the past year. Two Federal agencies have not responded regarding the
       annual security control testing for the three systems for which they are responsible, and
       one Federal agency system is currently undergoing a recertification and re-accreditation,
       but a new authorization to operate has not been issued. Subsequent to the completion of
       fieldwork, the agency received documentation from a Federal agency responsible for two
       e-Government systems stating those systems have had their security controls tested and
       reviewed in the past year.
   •   The agency has received notification from the Federal agencies responsible for all eight
       e-Government systems stating that those systems have completed annual contingency
       plan testing.

In its fourth quarter FY 2008 FISMA report to OMB, the agency stated that next year it will
remove the e-Government systems from the NRC inventory of reportable systems. The agency
will continue to track e-Government systems in its inventory database, but will not be reporting
to OMB the status of those systems’ certification and accreditation, annual security control
testing, or annual contingency plan testing. This should be the responsibility of the Federal
agencies that own the systems. Reporting by the agencies that use e-Government systems
provided by other Federal agencies is duplicative.




                                                9
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2008


3.4    Evaluation of Quality of Agency System Inventory (Questions 3b-3f)

                            OMB Requirement                                       OIG Response
 3.b. The agency has developed a complete inventory of major                Inventory is 96-100%
 information systems (including major national security systems)            complete
 operated by or under the control of such agency, including an
 identification of the interfaces between each such system and all other
 systems or networks, including those not operated by or under the
 control of the agency.
 3.c. The IG generally agrees with the CIO on the number of agency-         Yes
 owned systems.
 3.d. The IG generally agrees with the CIO on the number of                 Yes
 information systems used or operated by a contractor of the agency or
 other organization on behalf of the agency.
 3.e. The agency inventory is maintained and updated at least               Yes
 annually.
 3.f. If the agency IG does not evaluate the agency’s inventory as 96-      N/A (none missing)
 100% complete, please identify the known missing systems by
 component/bureau, the UPI associated with the system as presented in
 your FY2008 Exhibit 53 (if known), and indicate if the system is an
 agency or contractor system.

Agency System Inventory – Background

FISMA requires agencies to develop and maintain an inventory of major information systems
operated by or under control of the agency. The inventory must include an identification of the
interfaces between each such system and all other systems or networks, including those not
operated by or under the control of the agency. The inventory must be updated at least annually
and must also be used to support information resources management. MD and Handbook 12.5
also requires all interfaces to be included in the inventory, including interfaces with systems or
networks not operated by or under the control of the agency.

To address findings from previous independent evaluations regarding the agency’s inventory, the
agency developed an automated inventory system, the NRC System Information Control
Database (NSICD), to house the inventory of automated information systems. The agency
inventory is maintained and updated at least annually. The agency issues data calls twice a year,
typically in January and August. Data call packages include an explanation of the data fields
found on the data call inventory sheets and instructions on how to verify and enter the data. The
agency also developed several procedures and guides to assist NRC offices with the data calls
and to assist the agency in maintaining the inventory data in the new system.




                                                10
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2008


FINDING A – The NRC Inventory Does Not Identify Interfaces Between Systems (New
Finding)

Carson Associates reviewed security plans for eight systems to identify the interfaces for those
systems. Carson Associates then reviewed the records for those systems in NSICD to determine
if the agency’s inventory included the interfaces identified in the security plans. Despite the fact
that the NSICD database schema includes a field for the identification of interfaces between
systems, and the data calls include a requirement to identify interfacing systems, Carson
Associates found that only one of the eight records reviewed included interface information, and
that information was not consistent with the interface information in the system’s security plan.

The agency has acknowledged that the interface information in the inventory is incomplete and is
currently populating a comment field in the database with interface information. The agency has
also stated it is planning to redesign the inventory database schema to ensure interface
information can be adequately captured in the future. While the NRC inventory does not identify
interfaces between systems as required by FISMA, interface information is documented in both
the security plans and risk assessments for the systems reviewed.

RECOMMENDATIONS

      The Office of the Inspector General recommends that the Executive Director for Operations:

      1. Update the NRC System Information Control Database to identify all interfaces between
         systems.
      2. Develop and implement procedures to ensure interface information in the NRC System
         Information Control Database is consistent with interface information in security plans
         and risk assessments.

3.5      Evaluation of Agency POA&M Process (Question 4)

                             OMB Requirement                                      OIG Response
 4.a. The POA&M is an agencywide process, incorporating all known            Almost Always (96-
 IT security weaknesses associated with information systems used or          100% of the time)
 operated by the agency or by a contractor of the agency or other
 organization on behalf of the agency.
 4.b. When an IT security weakness is identified, program officials          Almost Always (96-
 (including CIOs, if they own or operate a system) develop, implement,       100% of the time)
 and manage POA&Ms for their system(s).
 4.c. Program officials and contractors report their progress on             Almost Always (96-
 security weakness remediation to the CIO on a regular basis (at least       100% of the time)
 quarterly).
 4.d. Agency CIO centrally tracks, maintains, and reviews POA&M              Almost Always (96-
 activities on at least a quarterly basis.                                   100% of the time)




                                                 11
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2008


                                 OMB Requirement                                           OIG Response
 4.e. IG findings are incorporated into the POA&M process.                            Almost Always (96-
                                                                                      100% of the time)
 4.f. POA&M process prioritizes IT security weaknesses to help ensure Almost Always (96-
 significant IT security weaknesses are addressed in a timely manner  100% of the time)
 and receive appropriate resources.

Agency POA&M Process – Background

FISMA requires agencies to develop, document, and implement an agencywide information
security program that includes a process for planning, implementing, evaluating, and
documenting remedial action to address any deficiencies in the information security policies,
procedures, and practices of the agency. MD and Handbook 12.5 requires system
owners/sponsors to ensure that a POA&M is developed, implemented, and maintained to track
the major weaknesses that have been identified for office-sponsored information systems. Each
office shall regularly update the CIO on its progress in correcting system weaknesses to enable
the CIO to provide the agency’s quarterly FISMA update report to OMB.

NRC has two primary tools for tracking IT security weaknesses associated with information
systems used or operated by the agency or by a contractor of the agency or other organization on
behalf of the agency. At a high level, NRC uses the POA&Ms required by OMB to track (1)
corrective actions from the OIG annual independent evaluation, (2) corrective actions from the
agency’s annual review, and (3) recurring FISMA and IT security action items, such as annual
security control assessments and annual contingency plan testing. The POA&Ms may also
include corrective actions resulting from other security studies conducted by or on behalf of
NRC.

The more specific corrective actions associated with the certification and accreditation process
(e.g., corrective actions resulting from risk assessments and security control testing) are tracked
in Rational® ClearQuest®14 as change requests using the project management methodology
process for change management. All certification and accreditation corrective actions arising
from the security control testing process and from vulnerability scans are imported into Rational
ClearQuest. A corrective action plan is generated directly from Rational ClearQuest. System
owners are responsible for remediation of each corrective action within the timeframes specified
in the corrective action plan using the project management methodology process for change
requests.

The agency has developed a process for requesting quarterly POA&M updates from system
owners, compiling the data into a consolidated source, reviewing it for accuracy, rolling up the
information, and reporting it to OMB. Five weeks prior to the quarterly submittal to OMB, the
agency sends out a data call to the offices asking them to update the current POA&Ms for their
systems and add new weaknesses to the POA&Ms. Three weeks prior to the quarterly submittal
to OMB, the agency receives the updated POA&M data from the system owners and enters the
data into NSICD. The agency also adds any new weaknesses identified from various sources

14
     Rational ClearQuest is an IBM software package used for software change management.


                                                        12
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2008


including OIS recommendations and system certification artifacts. The agency provides
instructions on providing the quarterly updates to the POA&M and specifies that data in only
four fields on the POA&M should be changed: resources, brief description of work/services
required, changes to milestones, and status.

The FY 2007 FISMA independent evaluation found that the quality of the agency’s POA&Ms
needs improvement. Specifically, Carson Associates found that (1) the metrics submitted to
OMB often deviated from the actual POA&Ms, and (2) the agency is not always following OMB
and internal NRC POA&M guidance. The FY 2007 FISMA independent evaluation also found
that the agency had made minimal progress in correcting weaknesses reported on its POA&Ms.

FINDING B – The Quality of the Agency’s POA&Ms Still Needs Improvement (Repeat
Finding)

As in previous independent evaluations, Carson Associates found that the quality of the agency’s
POA&Ms still needs improvement. In assessing the agency’s POA&M process, Carson
Associates found that (1) the metrics submitted to OMB often deviated from the actual
POA&Ms, and (2) the agency is not always following OMB and internal NRC POA&M
guidance. Carson Associates also found that the agency is closing weaknesses without sufficient
evidence from the system owner. The agency is currently in the process of implementing quality
assurance procedures for POA&Ms.

Metrics Submitted to OMB Deviate From the Actual POA&Ms

As in previous independent evaluations, Carson Associates found discrepancies between the
metrics submitted to OMB and the actual POA&Ms. The most common errors causing the
discrepancies are:

   •   Counting weaknesses as closed in more than one quarter.
   •   Counting weaknesses as closed when they have not been closed by the OIG.
   •   Not counting weaknesses as closed when they have been closed by the OIG prior to the
       cutoff date for POA&M reporting.
   •   Reporting weaknesses as on track when they are actually delayed.
   •   Reporting weaknesses as delayed when they are still on track.

The Agency Is Not Always Following OMB and NRC Internal POA&M Guidance

As in previous FISMA evaluations, Carson Associates also found that the agency is not always
following OMB’s POA&M guidance. The agency is also not following NRC internal POA&M
guidance. The following are some examples of deviations from OMB and NRC internal
POA&M guidance found on the FY 2008 POA&Ms.




                                               13
                                                                                     Independent Evaluation of
                                                                      NRC’s Implementation of FISMA for FY 2008


       •   Weaknesses with completion dates over a year old are not always removed from the
           POA&Ms. OMB guidance15 states that weaknesses that are no longer undergoing
           correction and have been completely mitigated for over a year should no longer be
           reported in the agency POA&M.
       •   Weaknesses with changes made to scheduled completion dates. OMB guidance states
           that once an agency has completed the initial POA&M, no changes should be made to the
           scheduled completion date.

The Agency Is Closing Weaknesses Without Sufficient Evidence from the System Owners

During our analysis of weaknesses closed during the first quarter FY 2008, we identified nine
weaknesses for one system that should not have been closed based on the corrective actions
described in the POA&M. We examined the documents referenced in the agency’s resolution
and found that they did not include the information required to close the weaknesses. We
notified the agency and the weaknesses were added back to the POA&M in the fourth quarter of
FY 2008.

Agency Progress in Implementing Quality Assurance Procedures for POA&Ms

In a memorandum to the OIG, the agency stated it has been working on automating the POA&M
process by using NSICD to store, process, and generate the POA&Ms. Once the migration from
the Excel spreadsheet to the automated process is completed, the agency will draft procedures for
the new process. The agency has recently acquired the Environmental Protection Agency’s
FISMA reporting solution, the Automated System Security Evaluation and Remediation
Tracking system, to further automate the POA&M and continuous monitoring processes. The
agency currently inputs POA&M data into the tool and has started developing a plan to ensure
quality assurance is included in the POA&M process. The plan includes developing a POA&M
checklist, using a contractor to perform independent verification and validation of closed
POA&M items, and performing quarterly reviews of system and program level POA&Ms.

NRC Has Made Progress in Correcting Weaknesses Reported on Its POA&Ms

The agency has made progress in correcting weaknesses reported on its POA&Ms. The agency
has corrected over 40 percent of its program and system level weaknesses in FY 2008. This is an
improvement over FY 2007, as in FY 2007 the agency had only corrected 35 percent of its
program level weaknesses and just over 23 percent of its system level weaknesses.




15
     OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management
     Act.


                                                      14
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2008


3.6    IG Assessment of the Certification and Accreditation Process (Question 5)

                            OMB Requirement                                       OIG Response
 5.a. The IG rates the overall quality of the agency’s certification and     Satisfactory
 accreditation process as:
 5.b. The IG’s quality rating included or considered the following
 aspects of the C&A process:
                                                            Security plan X
                                                      System impact level X
                                              System test and evaluation X
                                                  Security control testing X
                                                                             No (evaluated at the
                                                       Incident handling
                                                                             agency level)
                                                                             No (evaluated at the
                                             Security awareness training
                                                                             agency level)
                                                Configurations/patching X
                                                                    Other Risk assessment

This section reports on Carson Associate’s assessment of the agency’s certification and
accreditation process in detail. To evaluate the agency’s certification and accreditation process,
Carson Associates evaluated the certification and accreditation documents for the four systems
selected for evaluation during the FY 2008 independent evaluation. We reviewed the
certification and accreditation process and procedures located on the agency’s project
management methodology Web site and reviewed accreditation decision memoranda issued by
the agency’s authorizing official. We also reviewed the agency’s annual security control testing
process.

We rated the overall quality of the agency’s certification and accreditation process as satisfactory
because the agency has not completed the certification and accreditation for all agency systems.
We did find that the agency has made significant progress in certifying and accrediting its
systems, including developing or updating security plans for several systems, and that the
agency’s certification and accreditation process and the documents completed using the new
procedures are consistent with NIST guidance. We also found that the agency has completed
annual security control testing for all agency systems and for all contractor systems for which
NRC has direct oversight.

Certification and Accreditation – Background

The security certification and accreditation of information systems is integral to an agency’s
information security program and is an important activity that supports the risk management
process required by FISMA. Information systems under development must be certified and
accredited prior to becoming operational. Operational information systems must be recertified



                                                 15
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2008


and re-accredited every 3 years in accordance with Federal policy,16 and whenever there is a
significant change17 to the information system or its operational environment.

The following diagram18 illustrates the key activities, including certification and accreditation, in
managing enterprise-level risk, i.e., risk resulting from the operation of an information system.
As illustrated in the diagram, NIST has developed several standards and guidelines to support the
management of enterprise risk. NIST SP 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems, provides guidelines for certification and
accreditation.




16
    OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of Federal
   Automated Information Resources.
17
    Examples of significant changes to an information system that should be reviewed for possible re-accreditation
   include (1) installation of a new or upgraded operating system, middleware component, or application; (2)
   modifications to system ports, protocols, or services; (3) installation of a new or upgraded hardware platform or
   firmware component; and (4) modifications to cryptographic modules or services. Changes in laws, directives,
   policies, or regulations, while not always directly related to the information system, can also potentially affect the
   system security and trigger a re-accreditation action.
18
    The diagram was adapted from a diagram found in the NIST presentation “Building More Secure Information
   Systems: A Strategy for Effectively Applying the Provisions of FISMA,” dated July 29, 2005
   (http://csrc.nist.gov/sec-cert/PPT/fisma-overview-July29-2005.ppt).


                                                            16
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2008


Security certification is a comprehensive assessment of the management, operational, and
technical security controls19 that are planned or in place in an information system to determine
the extent to which the controls are (1) implemented correctly, (2) operating as intended, and (3)
producing the desired outcome with respect to meeting the security requirements for the
information system. The results of a security certification are used to reassess the risks and
update the system security plan, thus providing the factual basis for an authorizing official20 to
render a security accreditation decision. Security certification can include a variety of
assessment methods (e.g., interviewing, inspecting, studying, testing, demonstrating, and
analyzing) and associated assessment procedures depending on the depth and breadth of
assessment required by the agency.

Security accreditation is the official management decision given by a senior agency official to
(1) authorize operation of an information system and (2) explicitly accept the risk to agency
operations, agency assets, or individuals based on the implementation of an agreed-upon set of
security controls. By accrediting an information system, an agency official accepts responsibility
for the information system’s security.

There are three types of accreditation decisions that can be rendered by authorizing officials: (1)
authorization to operate, (2) interim authorization to operate (IATO), and (3) denial of
authorization to operate.

     •   Authorization to Operate – issued if, after assessing the results of the security
         certification, the authorizing official deems that the risk to agency operations, agency
         assets, or individuals is acceptable.
     •   Interim Authorization to Operate – issued if, after assessing the results of the security
         certification, the authorizing official deems that the risk to agency operations, agency
         assets, or individuals is unacceptable, but there is an overarching mission necessity to
         place the information system into operation or continue its operation. An IATO is
         rendered when the security vulnerabilities identified in the information system (resulting
         from deficiencies in the planned or implemented security controls) are significant but can
         be addressed in a timely manner. An IATO provides a limited authorization to operate
         the information system under specific terms and conditions and acknowledges greater
         risk to the agency for a specified period of time. In accordance with OMB policy, an
         information system is not accredited during the period of limited authorization to operate.
         The duration established for an IATO should be commensurate with the risk to agency
         operations, agency assets, or individuals associated with the operation of the information
         system. When the security-related deficiencies have been adequately addressed, the
         IATO should be lifted and the information system authorized to operate.



19
   Management controls are the safeguards or countermeasures that focus on the management of risk and the
   management of information system security. Operational controls are the safeguards or countermeasures that
   primarily are implemented and executed by people (as opposed to systems). Technical controls are the safeguards
   or countermeasures that are primarily implemented and executed by the information system through mechanisms
   contained in the hardware, software, or firmware components of the system.
20
   The agency refers to the authorizing official as the designated approving authority.


                                                        17
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2008


       •   Denial of Authorization to Operate – issued if, after assessing the results of the security
           certification, the authorizing official deems that the risk to agency operations, agency
           assets, or individuals is unacceptable. The information system is not accredited and
           should not be placed into operation. If the information system is currently operational, all
           activity should be halted.

To correct weaknesses identified by the FY 2005 and FY 2006 FISMA independent evaluations,
the agency implemented a new certification and accreditation process and developed templates
for all certification and accreditation documents, as well as instructions for completing the
templates. The new certification and accreditation process was also integrated into the agency’s
project management methodology.

NRC Has Made Significant Progress in Certifying and Accrediting Its Systems

The FY 2005, FY 2006, and FY 2007 FISMA independent evaluations found that the majority of
NRC information systems were not certified and accredited. The lack of certification and
accreditations for the majority of the agency’s systems was reported as a significant deficiency in
the FY 2006 and FY 2007 FISMA independent evaluation reports. In FY 2007, only 2 of the 30
operational NRC information systems had a current certification and accreditation, and only 4 of
the 11 systems used or operated by a contractor or other organization on behalf of the agency had
a current certification and accreditation. As of the completion of fieldwork for FY 2008, 14 of
the 28 most risk significant operational NRC information systems and 8 of the 11 systems used
or operated by a contractor or other organization on behalf of the agency had a current
certification and accreditation.

NRC Has Completed or Updated Security Plans for 14 of the Agency’s 28 Operational
Systems and for All Contractor Systems for Which NRC Has Direct Oversight

As of the completion of fieldwork for FY 2008, 14 agency systems and the 3 contractor systems
for which NRC has direct oversight had new or updated security plans.21

The Agency’s Certification and Accreditation Process and the Documents Completed
Using the New Procedures are Consistent with NIST Guidance

The FY 2007 independent evaluation found that the agency’s new certification and accreditation
process was inconsistent with NIST guidance – specifically that certification and accreditation
documents completed using the new procedures are inconsistent with NIST guidance. In a
memorandum to the OIG, the agency stated it is creating checklists to ensure the quality of
certification and accreditation documents. The checklist for security categorizations was
completed and issued to the agency in August 2007. The agency also stated it is in the process of
developing evaluation criteria checklists for three additional documents. The agency will
continue to develop evaluation checklists and distribute them to all system owners and certifying
agents. NRC is also currently soliciting feedback from certifying agents and system owners on


21
     The Federal agencies responsible for the eight e-Government systems would be responsible for updating those
     security plans.


                                                          18
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2008


the checklist developed to date. NRC plans to use contract support for reviewing and providing
feedback on documents and packages to system owners.

Carson Associates evaluated the certification and accreditation documents for the four systems
selected for evaluation during the FY 2008 independent evaluation and found that the documents
completed using the new procedures are consistent with NIST guidelines.

Annual Security Control Testing and Continuous Monitoring – Background

FISMA requires agencies to develop, document, and implement an agencywide information
security program that includes periodic testing and evaluation of the effectiveness of information
security policies, procedures, and practices, to be performed with a frequency depending on risk,
but no less than annually. Such testing shall include testing of management, operational, and
technical controls of every information system identified in the inventory required by FISMA.

Security assessments are conducted to determine the extent to which the controls are
implemented correctly, operating as intended, and producing the desired outcome with respect to
meeting the security requirements for the system. To satisfy the annual FISMA assessment
requirement, organizations can draw upon the security control assessment results from any of the
following sources, including but not limited to: (1) security certifications conducted as part of an
information system accreditation or reaccreditation process, (2) continuous monitoring activities,
or (3) testing and evaluation of the information system as part of the ongoing system
development life cycle process (provided that the testing and evaluation results are current and
relevant to the determination of security control effectiveness). Existing security assessment
results are reused to the extent that they are still valid and are supplemented with additional
assessments as needed. OMB does not require an annual assessment of all security controls
employed in an organizational information system. In accordance with OMB policy,
organizations must annually assess a subset of the security controls based on: (1) the FIPS 199
security categorization of the information system, (2) the specific security controls selected and
employed by the organization to protect the information system, and (3) the level of assurance
(or confidence) that the organization must have in determining the effectiveness of the security
controls in the information system. It is expected that the organization will assess all of the
security controls in the information system during the 3-year accreditation cycle. The
organization can use the current year’s assessment results obtained during security certification
to meet the annual FISMA assessment requirement.

The FY 2007 FISMA guidance stated that for FY 2007 and beyond agencies are required to use
FIPS 200, Minimum Security Requirements for Federal Information and Information Systems,
and NIST SP 800-53, Recommended Security Controls for Federal Information Systems, for the
specification of security controls, and NIST SP 800-37 and SP 800-53A, Guide for Assessing the
Security Controls in Federal Information Systems, for the assessment of security control
effectiveness. The FY 2008 FISMA guidance reiterated this requirement.

The FY 2007 independent evaluation found that the agency did not follow OMB and NIST
guidance when conducting its annual security control assessments (formerly referred to as self-
assessments). In May 2008, the agency issued a task order for completing annual security
control testing for FY 2008. The statement of work specified which agency systems require


                                                 19
                                                                                 Independent Evaluation of
                                                                  NRC’s Implementation of FISMA for FY 2008


annual security control testing and which do not. Agency systems that were authorized to
operate within the past fiscal year have already had their security controls tested and, therefore,
do not require additional annual security control testing. Agency systems that are currently
undergoing a certification and accreditation also do not require additional annual security control
testing. A total of 14 agency systems were identified for annual security control testing.

The contractor selected to perform the annual security control testing worked with the agency to
develop selection criteria for determining which security controls would be tested in FY 2008.
The CSO identified a set of 48 core controls to be evaluated for each system specified in the
statement of work. Systems scheduled for annual security control testing that are currently
operating under an authorization to operate were required to have an additional one-third of the
remaining controls selected for evaluation. The additional controls for these systems were
selected based on POA&M items resolved in the previous 12 months (or time period following
authorization to operate), with additional controls selected from the Access Control,
Configuration Management, Contingency Planning, Incident Response, System Maintenance,
and System and Services Acquisition control families and/or specific controls deemed necessary
by the assessor based on the sensitivity level of the system. For each system scheduled for
testing, the contractor prepared an annual security control test plan and a report.

NRC Has Completed Annual Security Control Testing for All Agency Systems and for All
Contractor Systems for Which NRC Has Direct Oversight

As of the completion of fieldwork for FY 2008, annual security control testing was completed
for all 14 agency systems identified for annual security control testing. The report for one
system is still a draft, but a final report is expected to be issued before the end of the fiscal year.
In addition, the security test and evaluations for the three agency systems currently undergoing a
certification and accreditation have also been completed. The security test and evaluation reports
for those systems are also drafts, but finals are also expected to be issued before the end of the
fiscal year.

Annual security control testing is also required for any contractor systems for which NRC has
direct oversight. Annual security control testing for e-Government systems is the responsibility
of the Federal agencies that operate those systems. NRC has direct oversight of three contractor
systems. One contractor system was authorized to operate in FY 2008 and, therefore, did not
require additional annual security control testing. Annual security control testing was completed
for the other two contractor systems for which NRC has direct oversight.

For the eight e-Government systems in use at NRC, NRC policy is to confirm with the owner
agencies that annual security control testing has been completed. The agency has received
documentation from the Federal agencies responsible for four e-Government systems stating that
those systems had their security controls tested and reviewed in the past year. Two Federal
agencies have not responded regarding the annual security control testing for the three systems
for which they are responsible, and one Federal agency system is currently undergoing a
recertification and re-accreditation, but a new authorization to operate has not been issued.
Subsequent to the completion of fieldwork, the agency received documentation from a Federal
agency responsible for two e-Government systems stating those systems have had their security
controls tested and reviewed in the past year.


                                                  20
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2008




3.7         IG Assessment of Agency Privacy Program and Privacy Impact
            Assessment (PIA) Process (Questions 6-7)

3.7.1 Privacy Impact Assessment Process

                                    OMB Requirement                                              OIG Response
 6. Provide a qualitative assessment of the agency’s Privacy Impact                          Excellent
 Assessment (PIA) process, including adherence to existing policy,
 guidance, and standards.

Carson Associates evaluated the agency’s PIA process against the questions from the PIA and
Web Privacy Policies and Processes section of the OMB Reporting Template for Senior Agency
Officials for Privacy.

6.a.        Does the agency have a written policy or process for determining whether a PIA is
            needed?

MD and Handbook 3.2, Privacy Act, requires office directors and regional administrators to
ensure that PIAs are prepared and submitted to OIS before developing or procuring IT that
collects, maintains, or disseminates personal information about individuals or when initiating a
new electronic collection of personal information in identifiable form22 from 10 or more persons.
In accordance with the agency’s project management methodology, a PIA is required for all
investments at the inception phase of the development life cycle. PIAs are also part of the
agency’s certification and accreditation process. ISS-01-001, Revision 0, PIA Procedures, dated
August 30, 2006, requires a PIA (or update of an existing PIA) for each legacy system requiring
recertification and re-accreditation.

6.b.        Does the agency have a written policy or process for conducting a PIA?

The agency has developed procedures (ISS-01-001) and a template for conducting PIAs. The
procedures provide a detailed discussion of how to complete a PIA and include guidance on how
to complete certain questions on the PIA. MD and Handbook 3.2 requires the OIS Business
Process Improvement and Applications Division (BPIAD) Director to ensure that PIAs are
conducted, reviewed, and approved before NRC collects information in an identifiable form or
before developing or procuring IT that collects, maintains, or disseminates such information.
The OIS Information and Records Services Division (IRSD) Director is required to ensure that
PIAs are reviewed to address the applicability of the Privacy Act, the Paperwork Reduction Act
information collections requirements, and records management requirements. Once IRSD has
completed its review and approved a PIA, IRSD is responsible for declaring the PIA as an
official agency record in the agency’s records management system.



22
     Information in identifiable form is information that permits the identity of the individual to whom the information
     applies to be reasonably inferred directly or indirectly.


                                                            21
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2008


6.c.   Does the agency have a written policy or process for evaluating changes in business
       process or technology that the PIA indicate as necessary?

PIAs are part of the agency’s project management methodology and certification and
accreditation process. Any changes in business process or technology indicated by a PIA would
be handled in accordance with these processes.

6.d.   Does the agency have a written policy or process for ensuring that system owners and
       privacy and IT experts participate in conducting the PIA?

Offices/system owners are responsible for preparing a PIA for each IT project/system they
sponsor and submitting it to OIS for review and approval. The PIA undergoes review several
times during development by privacy and IT experts, including the agency Privacy Program
Officer, IRSD privacy and records staff, the computer security team, and the agency’s Senior
Agency Information Security Officer.

6.e.   Does the agency have a written policy or process for making PIAs available to the public
       in the required circumstances?
6.f.   Does the agency have a written policy or process for making PIAs available in other than
       required circumstances?

PIAs for systems that collect information from or about members of the public are made publicly
available and posted on the NRC external Web site, unless making the PIA public would raise
security concerns or reveal classified (i.e., national security) or sensitive information (e.g.,
potentially damaging to a national interest, law enforcement effort, or competitive business
interest) contained in the assessment. The sponsoring office is responsible for performing the
review that determines if the PIA can be made public or not. Should an office wish to post on
the external Web site a PIA that does not collect information from or about members of the
public, the office must inform the Privacy Program Officer that it has completed a review and
that there is nothing in the PIA that would preclude it from being made public. The Privacy
Program Officer changes the availability of the document in the agency’s records management
system and has it posted on the agency’s external Web site.

6.g.   Does the agency have a written policy or process for determining continued compliance
       with stated Web policies?

MD and Handbook 3.14, U.S. Nuclear Regulatory Commission Public Web Site, includes
policies and procedures to ensure that (1) operation of the site complies with applicable laws and
regulations; (2) all content on the public Web site increases public confidence in NRC and makes
conducting business with NRC more efficient and effective; and (3) the content (i) reflects
agency policy; (ii) is accurate, current, and easy to find; (iii) is accessible by all site users,
including those with disabilities; (iv) adheres to best practices for Web usability; (v) does not
unfairly promote one organization or commercial entity over others; and (vi) is published only
once and is referenced by links when the same content is related to more than one topic.




                                                22
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2008


MD and Handbook 3.14 is augmented by additional guidance on the agency’s internal Web site.
The additional guidance includes interface requirements for Web-based software applications,
requirements and best practices for Government Web managers, and information on who
participates in Web publishing. The agency’s process for publishing content to the agency’s
public Web site includes five basic steps: (1) initial authorization of content, (2) screening
content, (3) preparing content, (4) formatting content, and (5) publishing content. During the
screening step, the content is checked for Web suitability and includes checks for copyright,
OMB information collection requirements, persistent cookies, privacy, and sensitivity. The Web
site includes numerous instructions and checklists for each step of the publishing process.

6.h.     Does the agency have a written policy or process for requiring machine-readability of
         public-facing agency Web sites (i.e., use of P3P23)?

MD and Handbook 3.14 discusses the use of P3P. The NRC public Web site contains a
machine-readable P3P file that describes for the user’s Web browser how NRC uses information
collected through its online forms. It is the responsibility of the sponsor of each NRC subsite24
outside of the NRC public Web site to ensure that their site complies with the OMB guidance on
P3P.

3.7.2 Progress in Implementing OMB M-07-16

                                 OMB Requirement                                              OIG Response
 7. Provide a qualitative assessment of the agency’s progress to date                     Good
 in implementing the provisions of M-07-16, “Safeguarding Against
 and Responding to the Breach of Personally Identifiable
 Information.”

In response to the OMB memorandum M-07-16, NRC has accomplished the following:

     •   On September 19, 2007, NRC issued the NRC Personally Identifiable Information
         Breach Policy and the NRC Plan to Eliminate the Unnecessary Collection and Use of
         Social Security Numbers. NRC employees were notified of these policies via an
         agencywide announcement on that date. Carson Associates analyzed the breach
         notification policy and found it is compliant with the requirements outlined in OMB
         Memorandum M-07-16.
     •   A March 2008 memorandum to the agency from the CIO directed staff to review all
         administrative office files to reduce the unnecessary use of personally identifiable
         information (PII) and to report back to the privacy program officer that the review had
         been completed no later than May 30, 2008.
     •   In June 2008, the agency issued a revised computer security information protection
         policy in response to several OMB memoranda regarding the protection of agency
         sensitive information. The policy provided direction for protection of NRC information

23
   The Platform for Privacy Preferences Project (P3P) enables Web sites to express their privacy practices in a
   standard format that can be retrieved automatically and interpreted easily by user agents.
24
   The term subsite is used to refer to a collection of Web pages within a larger site.


                                                         23
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2008


         and information systems and will be included in the next revision of MD 12.5. The
         policy was provided to staff via an NRC Yellow Announcement.25
     •   The agency created a PII poster that has been displayed in all agency buildings. Smaller
         copies of the poster are displayed throughout agency offices. The agency also maintains
         a PII project Web page that describes the agency’s activities related to the protection of
         PII. This Web page contains information such as (1) frequently asked questions; (2) how
         to report inadvertent releases of PII; (3) links to OMB, Office of Personnel Management,
         and NRC PII policy; (4) information on the agency’s PII task force (e.g., background and
         charter, membership, and meeting minutes); and (5) information on automated tools
         available to assist in searching for files that contain PII.

However, the agency has not fully implemented the provisions of OMB Memorandum M-07-16.
NRC has completed all requirements except for the following:

     •   Agencies must review their current holdings of all PII and ensure, to the maximum extent
         practicable, such holdings are accurate, relevant, timely, and complete and reduce them to
         the minimum necessary for the proper performance of a documented agency function.
         Following the initial review, the agency must develop and make public a schedule by
         which they will periodically update the review of their holdings. NRC has not made a
         schedule public or determined the periodicity of a review of all holdings. However, the
         agency has implemented policy for the annual review of agency shared drives for PII.
     •   Agencies must encrypt all data on mobile computers/devices carrying agency data unless
         the data is determined not sensitive, in writing, by the agency’s Deputy Secretary (or
         equivalent) or a senior-level official the Deputy Secretary may designate in writing. Only
         NIST-certified cryptographic modules may be used for encryption.26 NRC has prohibited
         the removal of PII from agency controlled space, unless the mobile device is encrypted in
         accordance with NIST standards. Full implementation of the NRC enterprise encryption
         program is expected by June 30, 2010.
     •   Remote access should be allowed only with two-factor authentication where one of the
         factors is provided by a device separate from the computer gaining access. Currently, the
         agency requires a digital certificate and a user identifier and password for remote access.
         However, the certificate is not separate from the computer gaining access. Two-factor
         authentication has been incorporated into the encryption project that is expected to be
         completed by June 30, 2010.
     •   Agencies are required to ensure all individuals with authorized access to PII and their
         supervisors sign at least annually a document clearly describing their responsibilities. To
         ensure that all agency personnel are familiar with their responsibilities to protect sensitive
         information, including PII, NRC issues regular announcements to all employees. These
         announcements provide general guidance or address specific issues. Each notice directs
         agency personnel to an internal Privacy Act Web page, which provides staff access to

25
    NRC Yellow Announcements (formerly Yellow Announcements) establish new policies, practices, or procedures;
   introduce changes in policy, senior staff assignments, or organization; or address major agencywide events. These
   announcements require signature and are retained as permanent records in the agency’s document management
   system.
26
    See NIST’s Website at http://csrc.nist.gov/cryptval/ for a discussion of the certified encryption products.


                                                         24
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2008


           guidance, regulations, procedures, and training in the area of the Privacy Act. However,
           the agency is still developing a methodology for ensuring individuals with access to PII
           and their supervisors sign (at least annually) a document clearly describing their
           responsibilities.

3.8        Configuration Management (Question 8)

3.8.1 Configuration Policy and Common Security Configurations

                                   OMB Requirement                                              OIG Response
 8.a. Is there an agencywide security configuration policy?                               Yes
 8.b. Approximate the extent to which applicable systems implement                        Mostly (81-95% of
 common security configurations, including use of common security                         the time)
 configurations available from the National Institute of Standards and
 Technology’s Website at http://checklists.nist.gov.

FISMA requires agencies to develop policies and procedures that ensure compliance with
minimally acceptable system configuration requirements as determined by the agency. NIST SP
800-53 requires organizations to: (1) establish mandatory configuration settings for information
technology products employed within the information system, (2) configure the security settings
of information technology products to the most restrictive mode consistent with operational
requirements, (3) document the configuration settings, and (4) enforce the configuration settings
in all components of the information system.

The agency has implemented several policies that address security configurations and their
implementation. System security screening guidelines were developed to prepare new systems
for implementation into the NRC production operating environment. The security screening
ensures that system configurations meet NRC network security requirements. The guidelines
outline the steps necessary to request and perform the security screening process, provide
guidance on managing and developing a secure system, and list industry best practices and
additional resources.

The agency has also posted guidance on the NRC internal Web site requiring the use of
hardening specifications for the different operating systems and software in use at the agency.
Hardening specifications in use at the agency include benchmarks developed by the Center for
Internet Security (CIS), the Defense Information Systems Agency (DISA) Gold Disk,27 National
Security Agency security configuration guides, and custom hardening specifications developed
by the agency. The agency requires the use of the most recent version of the specified hardening
specifications.




27
      The DISA Gold Disk is a tool that allows a system administrator to scan a system for vulnerabilities, make
     appropriate security configuration changes, and apply security patches. The Gold Disk uses an automated process
     that configures a system in accordance with DISA Security Technical Implementation Guidelines.


                                                           25
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2008


NRC uses PatchLink to keep desktop configurations consistent across NRC. Network Bulletins
are used to announce agency workstation updates. The announcements describe the nature of the
upgrade and whether or not a workstation restart is required after the patches are installed.

To determine the extent to which applicable systems apply common security configurations,
Carson Associates reviewed the security test and evaluation results for the four systems selected
for evaluation in FY 2008. The agency performs a vulnerability assessment during security
control testing, which includes vulnerability scans, penetration tests, and hardening checks using
the following tools:

   •   Nessus – A general-purpose scanning tool that provides information on network-based
       vulnerabilities.
   •   DISA Gold Disk – A Department of Defense tool that tests Windows-based hosts for
       compliance with the DISA Gold standard, including file and registry access control and
       auditing settings, running services, installed applications and patches, and user rights.
   •   CORE Impact – A specialized penetration testing tool that provides automated testing of
       known exploits against detected platforms, protocols, and services.
   •   CIS Benchmarks – NRC-approved security hardening specifications for a variety of
       platforms and software, prepared by CIS (http://www.cisecurity.org/).

The results from the vulnerability assessments for the four systems selected for evaluation in FY
2008 indicate that the systems apply common security configurations 81-95 percent of the time.

3.8.2 Federal Desktop Core Configuration (FDCC)

                           OMB Requirement                                        OIG Response
 8.c.1. Agency has adopted and implemented FDCC standard                    Yes
 configurations and has documented deviations.
 8.c.2. New Federal Acquisition Regulation 2007-004 language, which         Yes
 modified “Part 39—Acquisition of Information Technology,” is
 included in all contracts related to common security settings.
 8.c.3. All Windows XP and Vista computing systems have                     No
 implemented the FDCC security setting.

In March 2007, OMB issued a series of memoranda requiring agencies to develop plans for using
Windows XP and Vista security configurations develop by NIST, the Department of Defense,
and the Department of Homeland Security. Plans were to be submitted to OMB by May 1, 2007.
The memoranda also require new acquisitions to include the configurations and require IT
providers to certify their products operate effectively using the configurations. In June 2007,
OMB issued a memorandum containing recommended language to use in solicitations to ensure
new acquisitions include common configurations and IT providers certify their products operate
effectively using the configurations. Agencies were required to report to OMB by February 1,
2008, the number of desktops using Windows XP and Vista and the number of those desktops
that have implemented FDCC security settings. Agencies were also required to report to NIST


                                                26
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2008


the same information, as well as FDCC deviations for each operational environment/system
role28 present within the agency.

On April 27, 2007, the agency submitted its plan for using Windows XP and Vista security
configurations to OMB. The agency’s plan included all agency standard desktops/laptops.29 On
November 9, 2007, the agency issued a memorandum requiring a clause for ensuring new
acquisitions include common security configurations in all new IT acquisition solicitations,
contracts, agreements, purchase orders, delivery orders, and task orders awarded under the
General Services Administration’s Federal Supply Schedule. The memorandum also provided
instructions for incorporating the clause into existing contracts, agreements, purchase orders,
delivery orders, and task orders. On February 12, 2008, the agency submitted its FDCC status
update to OMB and reported that the agency has a total of 4,856 managed desktops running
Windows XP service pack 2, none of which are FDCC compliant. The report to OMB also
included a breakdown of how many FDCC settings the agency does and does not meet. NIST
has established two types of FDCC settings: group policy settings and application/registry
settings. As of the February 2008 report to OMB, NRC met or exceeded 213 of the 237 group
policy settings and met or exceeded 37 of the 62 application/registry settings that apply to the
NRC environment. On March 31, 2008, the agency submitted its FDCC compliance report to
NIST. When reporting to NIST, the agency reported only on the number of centrally-managed
general-purpose desktops and reported a total of 27 deviations from the FDCC settings.

FINDING C – Not All Windows XP and Vista Systems Have Implemented FDCC Security
Settings (New Finding)

While the agency has adopted and implemented FDCC standard configurations, documented
deviations, and included the new Federal Acquisition Regulation language in all contracts related
to common security settings, Carson Associates found that not all Windows XP and Vista
systems have implemented FDCC security settings. The agency’s plan for using Windows XP
and Vista security configurations included all agency standard desktops/laptops; however, the
agency only reported to OMB and NIST on the number of centrally managed general purpose
desktops connected to the NRC local area network. It is unclear whether the information
reported to OMB and NIST also included centrally-managed general-purpose laptops, desktops
and laptops that are not centrally managed, or desktops and laptops used as standalone30 systems.




28
   NIST defines five operational environment/system roles for the purposes of FDCC reporting: centrally-managed
   general-purpose desktop, centrally-managed general-purpose laptop, development system, special use system, and
   other.
29
   Standard desktops and laptops only include those leased from a commercial vendor under the agency’s seat
   management contract. They do not include desktops or laptops owned by the agency.
30
   Standalone refers to a desktop or laptop that is not configured for connectivity to the NRC local area network.


                                                        27
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2008


According to a 2005 OIG report on standalone PCs and laptops,31 in 2005 there were
approximately 117 standalone PCs and laptops that are used to process safeguards32 and/or
classified33 information. However, the number of standalone PCs and laptops that do not process
safeguards and/or classified information is unknown as these standalone PCs and laptops are not
tracked in a central location. NRC has not included any standalone systems in its FDCC
implementation plans or reports to OMB and NIST.

The 2005 OIG report found that security controls for standalone PCs and laptops were not
adequate. The security controls were lacking because users were not given sufficient guidance
on implementing security controls, the agency lacked a mechanism for assigning users
responsibility for implementing security controls, and the agency lacked procedures for verifying
that all required security controls were being implemented. This finding can be extended to
include the lack of policies and procedures to implement the FDCC security settings. Many of
the security controls the OIG found to be lacking are included in the FDCC security settings.
Implementation of the FDCC security settings would correct many of the security controls found
to be lacking in the OIG report.

RECOMMENDATIONS

     The Office of the Inspector General recommends that the Executive Director for Operations:

     3. Develop agencywide policy and procedures regarding the implementation and monitoring
        of Federal Desktop Core Configuration controls for all desktop and laptop computers,
        including both those that are centrally managed under the agency’s seat management
        contract and those that are owned by the agency regardless of whether or not they are
        connected to the agency’s network.
     4. Develop a process for verifying that all Federal Desktop Core Configuration controls are
        implemented for all desktop and laptop computers, including both those that are centrally
        managed under the agency’s seat management contract and those that are owned by the
        agency regardless of whether or not they are connected to the agency’s network.




31
    OIG-05-A-18, System Evaluation of Security Controls for Standalone Personal Computers and Laptops,
   September 22, 2005.
32
    Safeguards information is sensitive unclassified information that specifically identifies the (1) detailed security
   measures of a licensee or an applicant for the physical protection of special nuclear material or (2) security
   measures for the physical protection and location of certain plant equipment vital to the safety of production or
   utilization facilities. Protection of this information is required pursuant to Section 147 of the Atomic Energy Act
   of 1954, as amended.
33
    Classified information is information (such as a document or correspondence) that is designated National Security
   Information, Restricted Data, or Formerly Restricted Data.


                                                          28
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2008


3.9    Incident Reporting (Question 9)

                            OMB Requirement                                        OIG Response
 9.a. The agency follows documented policies and procedures for              Yes
 identifying and reporting incidents internally.
 9.b. The agency follows documented policies and procedures for              Yes
 external reporting to US-CERT (http://www.us-cert.gov).
 9.c. The agency follows documented policies and procedures for              Yes
 reporting to law enforcement.

On May 2, 2008, the agency issued a revised policy on computer security incident response and
PII incident response. The policy provides direction for responding to computer security
incidents affecting the NRC’s systems, networks, and users, as well as PII incidents and will be
included in the next revision of MD 12.5. The revised policy contains time frames for
responding to such incidents, based on the criticality of the affected resources and the incident;
formally establishes a Computer Security Incident Response Team (CSIRT) to respond to such
incidents; and outlines the CSIRT’s security incident response process. The CSIRT will include
staff from the following offices: Computer Security Office, Office of Information Services,
Office of Administration, and Office of Nuclear Security and Incident Response.

The agency has a page on its internal Web site with information on incident response, including
what to do if a user discovers a virus; suspicious e-mail; or the deliberate or inadvertent release
of sensitive, classified, or safeguards information. The agency has also developed incident
response procedures for Exchange 2007/Outlook 2007 (electronic mail).

3.10   Security Awareness Training (Question 10)

                            OMB Requirement                                        OIG Response
 10. Has the agency ensured security awareness training of all               Almost Always (96-
 employees, including contractors and those employees with significant       100% of employees)
 IT security responsibilities?

All new NRC employees (including onsite contractors, interns, and summer hires) are required to
attend orientation the first day they report for duty. During the orientation, employees are given
a brief presentation, which includes a discussion on appropriate use of information technology
equipment. In addition, a representative from the Office of the General Counsel presents a
session on ethics that includes additional discussions on appropriate use of the Internet.

For FY 2008, all employees, including contractors, were required to take an online computer
security awareness self-study course. All NRC employees and support contractors having
network accounts were required to complete the course. Employees were also required to take
and complete a quiz before receiving credit for taking the course. According to the agency, 97
percent of total employees (including contractors) have completed the online computer security
awareness self-study course and completed the quiz. A score of 70 percent or higher is required
to receive credit for completion of the course and quiz.


                                                 29
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2008




All Information System Security Officers and IT managers are required to take an additional
online IT security awareness training course in addition to the required security awareness
training described above. This additional IT security awareness training course must be taken
every 3 years. NRC also provides an online IT security awareness course for system
administrators. All system administrators must take this training course before assuming their
duties, and then every 3 years thereafter.

NRC meets the Office of Personnel Management requirement to expose employees to security
awareness materials at least annually by (1) mandating all NRC staff take annual IT security
awareness training and by documenting who takes the annual training; (2) using posters, flyers,
Web pages, NRC Yellow Announcements, NRC Announcements, and articles/notices in the
NRC monthly newsletter to keep computer security on everyone’s mind throughout the year; and
(3) by holding an Annual NRC Security Awareness Day event.

FINDING D – Agency Still Developing Procedures for Ensuring Employees With
Significant IT Security Responsibilities Receive Security Training (Repeat Finding)

While the agency meets the FISMA requirement to ensure all employees received IT security
awareness training, the agency still has not met the requirement to provide specialized training
for employees with significant security responsibilities as described in NIST SP 800-16,
Information Technology Security Training Requirements: A Role- and Performance-Based
Model.

On April 3, 2008, the CISO issued a memorandum asking for support and action to ensure that
all employees with significant IT security responsibilities are appropriately identified. The
memorandum requires recipients of the memorandum to report back to the CISO by July 1,
2008, on the names of staff within their organization who have an IT security role as part of their
official duties. The memorandum included a spreadsheet that can be used to identify the
individuals with these roles and a template for completing the report. The information from the
data call is currently being compiled into a database to develop a comprehensive role-based
training plan. In March 2008, the agency contacted the Department of State to request training
services under its Information Systems Security Line of Business, Information Assurance Role-
Based Training Program. In addition to the role-based training the agency expects to be
available via the Department of State, the agency provided a Defense in Depth – Securing
Windows Server 2003 course to approximately 20 employees in January 2008 and provided role-
based training for system owners in August 2008.




                                                30
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2008


3.11   Collaborative Web Technologies and Peer-to-Peer File Sharing (Question
       11)

                           OMB Requirement                                       OIG Response
 11. Does the agency explain policies regarding the use of                 Yes
 collaborative Web technologies and peer-to-peer file sharing in IT
 security awareness training, ethics training, or any other agencywide
 training?

The IT Security Policies page on the agency’s internal Web site specifically states that the
installation of peer-to-peer (P2P) software on NRC computers is prohibited unless explicitly
approved by the NRC Designated Approving Authority. The Web page also provides a link to
P2P frequently asked questions. The FY 2008 online computer security awareness self-study
course briefly discussed some types of collaborative Web technologies such as bulletin boards,
discussion groups, instant messaging, and chat. The online computer security awareness self-
study course also discussed the use of P2P and file-sharing software and reiterated the
requirement to get explicit written approval from the NRC Designated Approving Authority
prior to installing P2P software on NRC computers.

3.12   E-Authentication Risk Assessments (Question 12)

                           OMB Requirement                                       OIG Response
 12.a. Has the agency identified all e-authentication applications and     No
 validated that the applications have operationally achieved the
 required assurance level in accordance with the NIST Special
 Publication 800-63, “Electronic Authentication Guidelines?”
 12.b. If the response is “No,” then please identify the systems in        See below.
 which the agency has not implemented the e-authentication guidance
 and indicate if the agency has a planned date of remediation.

In December 2003, OMB issued memorandum M-04-04, E-Authentication Guidance for Federal
Agencies, which requires agencies to review new and existing electronic transactions to ensure
the authentication processes provide the appropriate level of assurance. The FY 2008 FISMA
guidance from OMB defines an e-authentication application as one that is Web-based, requires
authentication, and extends beyond the borders of the agency’s enterprise (e.g., multi-agency,
governmentwide, or used by the public). Based on these criteria, NRC has determined that it
does not have any e-authentication applications. Subsequent to the completion of fieldwork, the
agency stated it has one e-authentication application in operation and another in development.

Carson Associates reviewed the e-authentication risk assessment and security plan for the
agency’s one operational e-authentication application and determined that the application has not
operationally achieved the required assurance level in accordance with NIST SP 800-63,
Electronic Authentication Guidelines.




                                               31
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2008




[Page intentionally left blank]




              32
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2008


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Update the NRC System Information Control Database to identify all interfaces between
       systems.
    2. Develop and implement procedures to ensure interface information in the NRC System
       Information Control Database is consistent with interface information in security plans
       and risk assessments.
    3. Develop agencywide policy and procedures regarding the implementation and monitoring
       of Federal Desktop Core Configuration controls for all desktop and laptop computers,
       including both those that are centrally managed under the agency’s seat management
       contract and those that are owned by the agency regardless of whether or not they are
       connected to the agency’s network.
    4. Develop a process for verifying that all Federal Desktop Core Configuration controls are
       implemented for all desktop and laptop computers, including both those that are centrally
       managed under the agency’s seat management contract and those that are owned by the
       agency regardless of whether or not they are connected to the agency’s network.




                                               33
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2008




[Page intentionally left blank]




              34
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2008


5      Agency Comments

At an exit conference on September 16, 2008, agency officials agreed with the report’s findings
and recommendations and provided two editorial changes, which the OIG incorporated as
appropriate. The agency opted not to submit formal comments.




                                               35
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2008




[Page intentionally left blank]




              36
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2008


Appendix A.       SCOPE AND METHODOLOGY

Carson Associates performed an independent evaluation of NRC’s Implementation of FISMA
for FY 2008. To conduct the independent evaluation, the team met with agency staff responsible
for implementing the agency’s information system security program, reviewed certification and
accreditation documentation for the agency’s operational information systems, and reviewed
other documentation provided by the agency that demonstrated its implementation of FISMA.

All analyses were performed in accordance with guidance from the following:

   •   National Institute of Standards and Technology standards and guidelines.
   •   Nuclear Regulatory Commission Management Directive and Handbook 12.5, NRC
       Automated Information Security Program.
   •   NRC Office of the Inspector General audit guidance.

This work was conducted between April 2008 and August 2008. Any information received from
the agency subsequent to the completion of fieldwork was incorporated when possible. The
work was conducted by Jane M. Laroussi, CISSP, and Joseph P. Rood, CISSP, CISA, from
Richard S. Carson and Associates, Inc.




                                              37
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2008




[Page intentionally left blank]




              38
                                                                        Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2008


Appendix B.      FY 2008 OMB FISMA REPORTING TEMPLATE FOR IGs

This appendix contains the FY 2008 OMB FISMA Reporting Template for IGs (referred to by
OMB as Section C) that will be included in the agency’s FISMA submission to OMB.




                                            39
                                                                                                                       Independent Evaluation of
                                                                                                        NRC’s Implementation of FISMA for FY 2008



                                                Section C - Inspector General: Questions 1 and 2
Agency Name:          Nuclear Regulatory Commission                                                     Submission date:             September 19, 2008
                                                            Question 1: FISMA Systems Inventory

1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199
system impact level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a
contractor of an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency;
therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

                          Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number
and percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

                                                                     Question 1                                                  Question 2
                                                  a.                     b.                  c.                 a.                    b.                c.
                                            Agency Systems       Contractor Systems   Total Number of       Number of            Number of          Number of
                                                                                         Systems         systems certified   systems for which systems for which
                                                                                       (Agency and        and accredited      security controls contingency plans
                                                                                        Contractor                            have been tested have been tested
                                                                                         systems)                              and reviewed in in accordance with
                                                                                                                                the past year         policy


                                                                                                 Total
                      FIPS 199 System                  Number          Number   Total                     Total   Percent Total   Percent Total   Percent
Bureau Name                                Number              Number                           Number
                      Impact Level                    Reviewed        Reviewed Number                    Number of Total Number of Total Number of Total
                                                                                               Reviewed
                      High                       11          1         1          0       12           1        1   100%        1   100%        1   100%
                      Moderate                   17          2         9          0       26           2        2   100%        2   100%        2   100%
                      Low                         0          0         1          1        1           1        1   100%        1   100%        1   100%
                      Not Categorized             0          0         0          0        0           0
                      Sub-total                  28          3        11          1       39           4        4   100%        4   100%        4   100%
Component/Bureau      High                                                                 0           0
                      Moderate                                                             0           0
                      Low                                                                  0           0
                      Not Categorized                                                      0           0
                      Sub-total                   0          0         0          0        0           0        0               0               0
Component/Bureau      High                                                                 0           0
                      Moderate                                                             0           0
                      Low                                                                  0           0
                      Not Categorized                                                      0           0
                      Sub-total                   0          0         0          0        0           0        0               0               0
Component/Bureau      High                                                                 0           0
                      Moderate                                                             0           0
                      Low                                                                  0           0
                      Not Categorized                                                      0           0
                      Sub-total                   0          0         0          0        0           0        0               0               0
Component/Bureau      High                                                                 0           0
                      Moderate                                                             0           0
                      Low                                                                  0           0
                      Not Categorized                                                      0           0
                      Sub-total                   0          0         0          0        0           0        0               0               0
Component/Bureau      High                                                                 0           0
                      Moderate                                                             0           0
                      Low                                                                  0           0
                      Not Categorized                                                      0           0
                      Sub-total                   0          0         0          0        0           0        0               0               0
Agency Totals         High                       11          1         1          0       12           1        1   100%        1   100%        1   100%
                      Moderate                   17          2         9          0       26           2        2   100%        2   100%        2   100%
                      Low                         0          0         1          1        1           1        1   100%        1   100%        1   100%
                      Not Categorized             0          0         0          0        0           0        0               0               0
                      Total                      28          3        11          1       39           4        4   100%        4   100%        4   100%




                                                                                40
                                                                                                              Independent Evaluation of
                                                                                               NRC’s Implementation of FISMA for FY 2008



                                             Section C - Inspector General: Question 3
Agency Name:     Nuclear Regulatory Commission
               Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.       The agency performs oversight and evaluation to ensure information systems used or operated by
                 a contractor of the agency or other organization on behalf of the agency meet the requirements of
                 FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

                 Agencies are responsible for ensuring the security of information systems used by a contractor of their
                 agency or other organization on behalf of their agency; therefore, self reporting by contractors does not
                 meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
                 provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA            Almost Always (96-100%
                 compliance.                                                                                                   of the time)

                 Response Categories:
                  - Rarely- for example, approximately 0-50% of the time
                  - Sometimes- for example, approximately 51-70% of the time
                  - Frequently- for example, approximately 71-80% of the time
                  - Mostly- for example, approximately 81-95% of the time
                  - Almost Always- for example, approximately 96-100% of the time

                 The agency has developed a complete inventory of major information systems (including major
      3.b.       national security systems) operated by or under the control of such agency, including an
                 identification of the interfaces between each such system and all other systems or networks,
                 including those not operated by or under the control of the agency.
                                                                                                                               Inventory is 96-100%
                 Response Categories:
                                                                                                                               complete
                  - The inventory is approximately 0-50% complete
                  - The inventory is approximately 51-70% complete
                  - The inventory is approximately 71-80% complete
                  - The inventory is approximately 81-95% complete
                  - The inventory is approximately 96-100% complete

      3.c.       The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                  Yes

                 The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                               Yes
                 contractor of the agency or other organization on behalf of the agency. Yes or No.

      3.e.       The agency inventory is maintained and updated at least annually. Yes or No.                                            Yes

                 If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems
      3.f.       by Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit
                 53 (if known), and indicate if the system is an agency or contractor system.

                                                                                                   Exhibit 53 Unique Project
                                                                                                                                 Agency or Contractor
                              Component/Bureau                            System Name                   Identifier (UPI)
                                                                                                                                      system?
                                                                                                     {must be 23-digits}




                                                                       41
                                                                                                                          Independent Evaluation of
                                                                                                           NRC’s Implementation of FISMA for FY 2008


                                                  Section C - Inspector General: Questions 4 and 5
Agency Name:         Nuclear Regulatory Commission
                                     Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate
the degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or necessary, include
comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                     The POA&M is an agency-wide process, incorporating all known IT security weaknesses associated with information
                                                                                                                                                Almost Always (96-
        4.a.         systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the
                                                                                                                                                100% of the time)
                     agency.
                     When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system)            Almost Always (96-
        4.b.
                     develop, implement, and manage POA&Ms for their system(s).                                                                 100% of the time)
                     Program officials and contractors report their progress on security weak ness remediation to the CIO on a regular basis Almost Always (96-
        4.c.
                     (at least quarterly).                                                                                                   100% of the time)

                                                                                                                                                Almost Always (96-
        4.d.         Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.
                                                                                                                                                100% of the time)
                                                                                                                                                Almost Always (96-
        4.e.         IG findings are incorporated into the POA&M process.
                                                                                                                                                100% of the time)
                     POA&M process prioritizes IT security weak nesses to help ensure significant IT security weaknesses are addressed in Almost Always (96-
        4.f.
                     a timely manner and receive appropriate resources.                                                                   100% of the time)
                     NRC has two primary tools for tracking IT security weaknesses. At a high level, NRC uses the POA&Ms required by OMB to track (1)
                     corrective actions from the OIG annual independent evaluation, (2) corrective actions from the agency’s annual review, and (3) recurring
 POA&M process       FISMA and IT security action items such as annual security control assessments and annual contingency plan testing. The POA&Ms may also
   comments:         include corrective actions resulting from other security studies conducted by or on behalf of NRC. The more specific corrective actions
                     associated with the certification and accreditation process (e.g., corrective actions resulting from risk assessments and security control testing)
                     are tracked in Rational ClearQuest as change requests using the project management methodology process for change management.


                                       Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and
standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and
Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk assessments
and security plans.

                     The IG rates the overall quality of the Agency's certification and accreditation process as:

                     Response Categories:
                      - Excellent
        5.a.                                                                                                                                    Satisfactory
                      - Good
                      - Satisfactory
                      - Poor
                      - Failing

                     The IG's quality rating included or considered the following aspects of the             Security plan                                 X
                     C&A process: (check all that apply)
                                                                                                             System impact level                           X
                                                                                                             System test and evaluation                    X
                                                                                                             Security control testing                      X
        5.b.
                                                                                                             Incident handling
                                                                                                             Security awareness training
                                                                                                             Configurations/patching                      X
                                                                                                             Other:                             Risk assessment
                     Incident handling and security awareness training were evaluated at the agency level.
   C&A process
    comments:




                                                                                 42
                                                                                                              Independent Evaluation of
                                                                                               NRC’s Implementation of FISMA for FY 2008


                                           Section C - Inspector General: Questions 6, 7, and 8
Agency Name:   Nuclear Regulatory Commission
                    Question 6-7: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

               Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA) process, as discussed in
       6
               Section D Question #5 (SAOP reporting template), including adherence to existing policy, guidance, and
               standards.

               Response Categories:
                - Response Categories:                                                                                       Excellent
                - Excellent
                - Good
                - Satisfactory
                - Poor
                - Failing



Comments:




       7       Provide a qualitative assessment of the agency’s progress to date in implementing the provisions of M-07-16
               Safeguarding Against and Responding to the Breach of Personally Identifiable Information.

               Response Categories:
                - Response Categories:
                                                                                                                             Good
                - Excellent
                - Good
                - Satisfactory
                - Poor
                - Failing




Comments:



                                                        Question 8: Configuration Management

      8.a.     Is there an agency-wide security configuration policy? Yes or No.                                             Yes
Comments:



               Approximate the extent to which applicable systems implement common security configurations, including
      8.b.
               use of common security configurations available from the National Institute of Standards and Technology’s
                                                                                                                             Mostly (81-95% of the
               website at http://checklists.nist.gov.
                                                                                                                             time)
               Response categories:

               -   Rarely- for example, approximately 0-50% of the time
               -   Sometimes- for example, approximately 51-70% of the time
               -   Frequently- for example, approximately 71-80% of the time
               -   Mostly- for example, approximately 81-95% of the time
               -   Almost Always- for example, approximately 96-100% of the time


      8.c.     Indicate which aspects of Federal Desktop Core Configuration (FDCC) have been implemented as of this report:


               c.1. Agency has adopted and implemented FDCC standard configurations and has documented deviations.
                                                                                                                             Yes
               Yes or No.

               c.2 New Federal Acquisition Regulation 2007-004 language, which modified "Part 39—Acquisition of
                                                                                                                             Yes
               Information Technology", is included in all contracts related to common security settings. Yes or No.


               c.3 All Windows XP and VISTA computing systems have implemented the FDCC security settings. Yes or N o. No




                                                                             43
                                                                                                                        Independent Evaluation of
                                                                                                         NRC’s Implementation of FISMA for FY 2008


                                               Section C - Inspector General: Questions 9, 10 and 11
Agency Name:         Nuclear Regulatory Commission
                                                                 Question 9: Incident Reporting

Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law enforcement.
If appropriate or necessary, include comments in the area provided below.

                     The agency follows documented policies and procedures for identifying and reporting incidents internally.
        9.a.                                                                                                                                  Yes
                     Yes or No.
                     The agency follows documented policies and procedures for external reporting to US-CERT. Yes or No.
        9.b.                                                                                                                                  Yes
                     (http://www.us-cert.gov)

        9.c.         The agency follows documented policies and procedures for reporting to law enforcement. Yes or No.                       Yes

Comments:




                                                           Question 10: Security Awareness Training
Has the agency ensured security awareness training of all employees, including contractors and those employees with significant
IT security responsibilities?

Response Categories:
                                                                                                                                              Almost Always (96-
 - Rarely- or approximately 0-50% of employees
                                                                                                                                              100% of employees)
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees
                                        Question 11: Collaborative Web Technologies and Peer-to-Peer File Sharing

Does the agency explain policies regarding the use of collaborative web technologies and peer-to-peer file sharing in IT security
                                                                                                                                              Yes
awareness training, ethics training, or any other agency-wide training? Yes or No.

                                                       Question 12: E-Authentication Risk Assessments
12.a. Has the agency identified all e-authentication applications and validated that the applications have operationally achieved
the required assurance level in accordance with the NIST Special Publication 800-63, “Electronic Authentication Guidelines”? Yes              No
or No.
12.b. If the response is “No”, then please identify the systems in which the agency has not
implemented the e-authentication guidance and indicate if the agency has a planned date of                     The agency’s one operational e-authentication
remediation.                                                                                                   application has not operationally achieved the
                                                                                                               required assurance level in accordance with NIST
                                                                                                               SP 800-63, Electronic Authentication Guidelines.




                                                                                44
